                                                         OFFICE OF INSPECTOR GENERAL
                                                   FY 2001 PERFORMANCE MEASURES
                            AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS
Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

  PERFORMANCE GOALS                                           OUTPUT/CRITERIA                                                OUTCOME/IMPACT
1. Deliver quality audit and        Audit and inspection reports.                                               FCA programs and operations are more
  inspection products and           Details at Attachment 1.                                                    effective.
  services that are useful to the
  Board, management and/or          Audits and inspections are relevant. Audit coverage includes all            COO has led efforts to resolve agreed upon
  the Congress.                     mandated audits and at least 75% of those suggested by the Board and        actions in an OIG audit report on
                                    management.                                                                 Performance Budgeting and continues to
                                                                                                                improve FCA business practices. In addition
                                    Three audits and three inspections were initiated to examine                to an inventory of products and services, the
                                    program efficiencies, especially use of resources.                          time recording system was streamlined.
                                                                                                                GPRA Training and a workgroup to integrate
                                    Risk is addressed. 100% of OIG audits are performed in high risk/high $     operating plans and the budget involved
                                    programs and activities and/or are tied to the Agency strategic planning    more Agency employees and created a
                                    goals.                                                                      unified approach to submission of data for
                                                                                                                consideration by the Board.
                                    All audits were in high-risk programs and/or were tied to the Agency        .
                                    strategic plan. Focus was on major Agency programs and                      Waste in Agency programs and operations are
                                    implementation of new programs. Inspections were utilized for field         reduced.
                                    office reviews. Each product aimed at identifying efficiencies and
                                    potential cost savings.                                                     Agency management accelerated the
                                                                                                                implementation of a replacement financial
                                    Findings made during audit fieldwork are recognized and corrected by        system.
                                    management prior to drafting of the audit or inspection report.
                                                                                                                Increased Agency compliance with laws,
                                    Management worked with OIG to address findings during:                      regulations and internal policies and procedures.
                                    •   FCA’s FY 2000 Financial Statements;
                                    • Performance Budgeting Audit
                                    • Government Information Security Reform Act Review
                                         INSPECTIONS OF:
                                       • Affirmative Employment Program Action Plan
                                       • Office of Examination, Office of Chief Examiner
                                           Office of Examination, Special Examination and Supervision
                                          Division

                                    Products are timely, i.e. average time to complete audits and issue draft
                                    reports will not exceed 6 months.

                                    All audits were completed in within 10 months. Inspections were
                                    completed more rapidly (2 mos. or less).
                                                                                                                                                 Page 1 of 10
                                                         OFFICE OF INSPECTOR GENERAL
                                                   FY 2001 PERFORMANCE MEASURES
                            AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS
Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

    PERFORMANCE GOALS                                          OUTPUT/CRITERIA                                              OUTCOME/IMPACT
1. Deliver quality audit and        Audits are constructive. At least 75% of audit products contain             Through the partnership concept, the IG and
  inspection products and           recommendations to improve Agency operations.                               FCA management:
  services that are useful to the
  Board, management and/or          100% of audits and 1 inspection contained recommendations to                    1) Received an unqualified opinion for
  the Congress.                     improve Agency operations.                                                         the Agency’s FY 2000 financial
  (Continued)                                                                                                          statements;
                                    The Agency accepts at least 80% of OIG audit recommendations.                   2) Validated the security of Agency
                                                                                                                       information;
                                    There were 19 agreed upon actions for change. All                               3) Work-life program is a forerunner in
                                    recommendations were accepted by management.                                       such areas as telecommuting, flexible
                                                                                                                       work scheduling, flexible spending
                                    The Agency actually implements all corrective actions prescribed by                account; and
                                    management decisions.                                                           4) Addressing specific guidance to
                                                                                                                       make the workplace a professional
                                    20% of the corrective actions have been implemented. The                           environment without tolerance of
                                    remaining 80% of those recommendations that have been accepted                     inappropriate behavior.
                                    by management are not yet implemented.
                                                                                                                FCA is more effective in carrying out its mission.

                                                                                                                Use of video conferencing equipment has
                                                                                                                saved time and resources and made the
                                                                                                                mission more effective.

2. Provide technical advice and     The IG advises the Chairman concerning policy direction or administrative   OIG input and advice contributes to Agency
   assistance to Agency             priorities.                                                                 decisions and actions that are more complete
   officials in developing sound                                                                                and valid at their inception.
   management information           The IG delivered two advisories to the Chairman concerning policy
   and financial reporting          issues and administrative priorities.                                       Increase in management requests for advice,
   systems and in streamlining                                                                                  audit work or technical assistance.
   programs and organizations.
                                                                                                                Regularly, Agency management asks OIG
                                                                                                                staff to look at policies and operating
                                                                                                                procedures.

                                                                                                                OIG was asked to engage a contractor to
                                                                                                                validate the Agency’s Early Warning System.



                                                                                                                                                  Page 2 of 10
                                                        OFFICE OF INSPECTOR GENERAL
                                                  FY 2001 PERFORMANCE MEASURES
                          AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS

Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

   PERFORMANCE GOALS                                        OUTPUT/CRITERIA                                          OUTCOME/IMPACT
3. Provide technical advice and    OIG performs analysis and provides technical advice to management    OIG is a laboratory of change, a model for
   assistance to Agency            concerning accounting, management systems and controls, and          best practices. OIG has employee contracts,
   officials in developing sound   performance measures.                                                and an interdisciplinary team approach to
   management information                                                                               projects.
   and financial reporting         Technical analysis and advice was provided through the following:
   systems and in streamlining     • GPRA implementation/performance measures                           OIG also has entered into an interagency
   programs and organizations.     • Performance budgeting                                              MOU to provide OIG with personnel services.
                                   • Acquisition of Financial Management System from External           This is a pilot program.
                                      Source
                                   • Travel                                                             OIG made suggestions to the Agency Travel
                                   • Compensation                                                       Policy.
                                   • FCA Accountability Report
                                   • Telecommuting                                                      OIG led an effort to initiate the streamlining
                                                                                                        of the time recording system and the
                                   • Budgeted Contract Funds v. Actual Use
                                                                                                        preparation of a comprehensive staffing plan.
                                   • Building Security
                                   • Mentoring Program                                                  OIG’s performance measures and budget
                                   • Service Level Agreements were reviewed and OIG gave                preparation was used as a model for unified
                                      comments                                                          FY 2002 Agency budget preparation linking
                                   • Family-friendly initiatives were extended and approved             to performance.
                                   • Disaster planning
                                   • Policy reform on inappropriate behavior and harassment in the
                                      workplace
4. Continuous improvement of       Customer survey feedback is used to improve products and services.   Peer review reports provide an unqualified
   OIG staff, products and                                                                              opinion that OIG audit work meets or exceeds
   internal administration.        OIG training ensures the technical proficiency of staff.             quality audit standards prescribed by GAO and
                                                                                                        the PCIE/ECIE.
                                   Training classes attended for proficiency:
                                   • Association of Government Accountants Leadership Conference        Peer review performed of audit operation was
                                       (Smith and Dean)                                                 successfully completed in FY 2000.
                                   • FCA Performance Measures (Ohlstrom, Dean, Smith)
                                   • Inspector General Auditor Training Institute (Ohlstrom)            Customer survey feedback evidences increased
                                   • Governance in the 21st Century (Dean)                              satisfaction with report practices.
                                   • Legal Professionalism (Dean)
                                                                                                        •   Report survey customer feedback was
                                                                                                            positive with 4.4 average (rating 1 to 5
                                                                                                            with 5 the high).

                                                                                                                                       Page 3 of 10
                                                  OFFICE OF INSPECTOR GENERAL
                                            FY 2001 PERFORMANCE MEASURES
                       AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS

Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

   PERFORMANCE GOALS                                     OUTPUT/CRITERIA                                             OUTCOME/IMPACT
4. Continuous improvement of   •   National White Collar Crime Center (Ohlstrom)                       •   Format and presentation of OIG products
   OIG staff, products and     •   Computer Training (all)                                                 have been upgraded with technological
   internal administration.    •   Legal Issues in Information Technology (Dean)                           tools and training.
   (Continued)                 •   OPM-NASA- Leadership for Critical Times (Ohlstrom)                  •   Benchmarking with comparable financial
                               •   Problem Solving (all)                                                   regulators results in more diversified
                               •   Council for Excellence in Government (Dean)                             benefits package for FCA.

                               OIG implements administrative improvements identified through reviews   The Inspector General’s opportunity to facilitate
                               of other Agency programs and through staff involvement with the         positive change within the Agency is enhanced by
                               professional community.                                                 the quality and credibility of OIG products and
                               • OIG staff members enter into a performance contract with the IG,      advice.
                                   identifying projects and responsibilities. Similarly, the IG and
                                   the Agency Chairman sign a performance contract.                    OIG staff actively develops ideas for adding
                               •    OIG teambuilding is ongoing.                                       value to the Agency and OIG operations. Part
                               • Equipment upgrades allow more professional products to be             of OIG performance contract involves
                                   produced in-house. OIG welcomes the Agency to use the               identifying specific ideas to audit or review in
                                   equipment. This has resulted in more professional products and      the upcoming year.
                                   acquisition of the necessary equipment within the Agency.
                                                                                                       This reporting period an Administrative
                               • OIG time tracking has been further streamlined.
                                                                                                       Burden Workgroup continued its leadership
                               • OIG has made a decision to reach “Agreed Upon Actions” in
                                                                                                       by an OIG staff member and further
                                   audits and inspections when possible. Process was further
                                                                                                       streamlined routine procedures.
                                   streamlined.
                               • The Hotline number has gained more visibility by being put on         The Agency has expanded work/life programs.
                                   the FCA website. OIG also has an independent Internet Hotline
                                   account, outside the FCA infrastructure.                            The Agency now has maxi-flex and a
                                                                                                       recognized telecommuting program.

                                                                                                       OIG was asked to prepare a revised leave
                                                                                                       policy, comparable to other financial
                                                                                                       regulators. It is being evaluated by Agency
                                                                                                       management.




                                                                                                                                       Page 4 of 10
                                                       OFFICE OF INSPECTOR GENERAL
                                                 FY 2001 PERFORMANCE MEASURES
                                                                    INVESTIGATIONS
Objective: Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud, waste, abuse and
           mismanagement in Agency programs and operations.

  PERFORMANCE GOALS                                           OUTPUT/CRITERIA                                                 OUTCOME/IMPACT
1. Administrative and criminal    Investigative reports are timely and presented in an objective and factual   Administrative action, convictions or pleas are
   violations relating to FCA     manner. Memoranda are issued to management describing internal               obtained for employees and/or contractors found
   programs and personnel         control weaknesses or program deficiencies found during the                  guilty of wrongdoing.
   are effectively investigated   investigative process with suggestions to prevent and/or detect future
   and reported.                  wrongdoing.                                                                  One referral to the Department of Justice was
                                                                                                               made. DOJ declined prosecution and the
                                  70% of active cases will be less than two years old (from the date           Agency took administrative action.
                                  the case is opened).
                                                                                                               Management actions taken against employees
                                  100% of employee cases without criminal prosecution potential will           serve as a deterrent to future wrongdoing.
                                  be completed within 1 year from opening the case.
                                                                                                               FCA internal policies, procedures and controls are
                                  Two investigations were open at the beginning of this period. One            strengthened to prevent and/or detect future
                                  was closed during FY 2001 and one remains open.                              wrongdoing.

                                                                                                               A closed investigation resulted in Agency
                                                                                                               policy clarification and agency-wide training
                                                                                                               in problem solving. Agency staff has an
                                                                                                               enhanced knowledge that reported issues will
                                                                                                               result in action when warranted and
                                                                                                               inappropriate behavior is not to be tolerated.

                                                                                                               The average time to complete six preliminary
                                                                                                               and unsubstantiated allegations was three
                                                                                                               months.




                                                                                                                                               Page 5 of 10
                                                       OFFICE OF INSPECTOR GENERAL
                                                 FY 2001 PERFORMANCE MEASURES
                                                                    INVESTIGATIONS
Objective: Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud, waste, abuse and
           mismanagement in Agency programs and operations.

   PERFORMANCE GOALS                                          OUTPUT/CRITERIA                                                  OUTCOME/IMPACT
2. FCA employees and               Allegations of wrongdoing are received in a timely manner and are          Investigations are more successful because they
   managers recognize their        supported by specific information.                                         are initiated in a timelier manner and have better
   responsibility to immediately   .                                                                          information.
   report observed or
   suspected wrongdoing to the                                                                                FCA employees are more willing to report real or
   IG.                                                                                                        suspected wrongdoing because they trust the
                                                                                                              competence and fairness of OIG’s investigations.

                                                                                                              The OIG is notified promptly whenever
                                                                                                              wrongdoing is observed or suspected in FCA
                                                                                                              programs. Various offices have sought
                                                                                                              guidance to avoid problems or to resolve
                                                                                                              potential problems before there is a need for
                                                                                                              investigation.

                                                                                                              Advance fee fraud schemes are referred to
                                                                                                              appropriate law enforcement agencies when
                                                                                                              FCA employees are solicited.



   •   Agency officials and        Summaries of investigations and the resulting administrative or judicial   The Chairman and Congress are better informed
       Congress are kept fully     actions taken are incorporated into the Semiannual Report to Congress,     about OIG investigations, administrative and
       and currently informed of   along with any disagreements on the actions taken or failure of            judicial consequences.
       problems found in the       management to act in a timely and responsible fashion.
       process of and resulting                                                                               Public confidence in the integrity of FCA
       from investigative          Findings made during the investigative process concerning the problem at   programs and internal operations are heightened.
       activities.                 issue or systemic problems are recognized and corrected or mediated by
                                   management.




                                                                                                                                               Page 6 of 10
                                                      OFFICE OF INSPECTOR GENERAL
                                                FY 2001 PERFORMANCE MEASURES
                                             REVIEW OF LEGISLATION AND REGULATIONS

Objective: Review and make recommendations regarding existing and proposed legislation and regulations relating to Agency
           programs and operations and the Inspectors General community.

  PERFORMANCE GOALS                                          OUTPUT/CRITERIA                                                OUTCOME/IMPACT
1. Maintain an effective          Processes are established and documented for identifying and circulating   OIG input is part of the decision making process
   program for reviewing and      (as appropriate) relevant documents.                                       in approving or amending legislation, regulations,
   commenting on proposed                                                                                    circulars and other policy positions.
   and existing legislation and   Legislation is tracked on a daily basis. The PCIE/ECIE Legislation
   regulations affecting the      Committee is active in forwarding interest items.                          Constructive criticism and creative alternatives
   Agency and the Inspectors                                                                                 offered in OIG comments improve the quality and
   General community.             Constructive comments on relevant documents are submitted by the           usefulness of documents initiated by the Agency.
                                  deadlines requested by the office, Agency or staff circulating comments.
                                                                                                             FCA Board and management are informed about
                                  Comments were submitted on time.                                           the status of new or pending legislation or
                                                                                                             regulations initiated externally.
                                  Document review activity is summarized for inclusion in the Semiannual
                                  Report to Congress.                                                        Congress asked OIGs to prepare and submit
                                                                                                             reports on: 1) Promptness of payment of
                                                                                                             water and sewage; and 2) Collection of data
                                                                                                             about individuals who access the Agency
                                                                                                             internet site.

                                                                                                             A Congressman asked the FCA OIG to report
                                                                                                             on whether the Agency was adhering to the
                                                                                                             Congressional Review Act.

                                                                                                             Response to a GAO survey involving
                                                                                                             consolidation of IG offices. OIG noted the
                                                                                                             original purpose of the legislation creating IGs
                                                                                                             and pointed out differences in missions, size
                                                                                                             and structure of other agencies




                                                                                                                                              Page 7 of 10
                                                        OFFICE OF INSPECTOR GENERAL
                                                  FY 2001 PERFORMANCE MEASURES
                                                                  OUTREACH PROGRAM

Objective: Work with our Agency head and the Congress to improve program management; and work with the Inspectors
           General community and other related organizations to address government wide issues.

    PERFORMANCE GOALS                                       OUTPUT/CRITERIA                                                          OUTCOME/IMPACT
1. Agency personnel understand    Develop and maintain educational brochures or pamphlets describing                  Agency employees’ acceptance of and
   and accept OIG’s role within   OIG roles and activities.                                                           cooperation with OIG activities is improved
   FCA and the community at                                                                                           through better understanding. OIG programs and
   large.                         Facilitate feedback from Agency employees and refine products and                   products are improved through feedback from
                                  practices based on the feedback to OIG products and educational                     Agency employees.
                                  materials
                                                                                                                      In place of the traditional audit report, Agency
                                  OIG policies have been refined and streamlined. Audit follow-up                     management has been receptive to the quick
                                  was merged with the Agency system so that duplication of effort will                response reviews and agreed upon action
                                  be avoided.                                                                         techniques. The techniques have been further
                                                                                                                      refined.
                                  Information concerning the OIG HOTLINE can be obtained through
                                  linkage with the IG Semiannual Report in the FCA database.                          The OIG at FCA brochure was updated.

                                                                                                                      Separate internet account opened to ensure
                                                                                                                      confidentiality. The account is with an outside
                                                                                                                      vendor and cannot be accessed by FCA
                                                                                                                      administrators.

2. OIG staff provides             Time and resources are provided to OIG staff members as an incentive to             Projects and activities of adjunct organizations
   Leadership to organizations    contribute to outside organizations by serving on committees and holding offices.   such as the AGA, IIA, PCIE/ECIE, CCIG, FLETC,
   directly contributing to the                                                                                       and IGATI are improved by OIG staff
   Inspectors General                                                                                                 contributions and participation
   community.
3. OIG staff provides             Professional Organizations - staff are active in meetings and                       OIG partnered with the OIG community and
   leadership to organizations    sessions of PCIE/ECIE and other professional organizations                          the FBI to investigate aspects of the terrorist
   directly contributing to the   including: Institute of Internal auditors, Association of Government                crisis. The investigator took part in evidence
   Inspectors General             Accountants, Council of Counsels, Association of Federal                            recovery at the Pentagon.
   community.                     Investigators, Training Coordinators, International Association of
                                  Financial Crime; Executive Women’s Group, and Instructor at
                                  Inspectors General Auditor Training Institute.




                                                                                                                                                      Page 8 of 10
                                           OFFICE OF INSPECTOR GENERAL
                                       FY 2001 PERFORMANCE MEASURES


                                                    AUDIT RESULTS
       AUDIT            AUDITS ARE       RISK IS          PRODUCTS      AUDITS ARE                  AGENCY
       NAME             RELEVANT       ADDRESSED             ARE       CONSTRUCTIVE               ACCEPTS 80%
                                                           TIMELY

Performance            OIG Initiated   Strategic Plan   10 Months    14 Agreed Upon          Accepted all; two
Budgeting                                                            Actions                 implemented.


FY 2000 Financial      Annual Audit    Strategic Plan   4 Months     No findings.            Working on closing issues
Statements             (Voluntary                                    Management Letter       identified.
                       Compliance
                       with CFO Act)

Government             Legislatively                    2 Months     No material findings.
Information Security   mandated
Reform Act Review




                                                                                                             Page 9 of 10
                                         OFFICE OF INSPECTOR GENERAL
                                   FY 2001 PERFORMANCE MEASURES


                                           INSPECTION RESULTS
     INSPECTION           INSPECTIONS ARE      PRODUCTS ARE   INSPECTIONS ARE         AGENCY
        NAME                 RELEVANT             TIMELY        CONSTRUCTIVE        ACCEPTS 80%

Affirmative Employment   OIG Initiated        2 Months        5 Agreed Upon     Accepted all and 1
Program Action Plan                                           Actions           implemented.

Administrative                                                                  No recommendations.
Functions of the Chief   OIG Initiated        2 Months
Examiner’s Office,
Office of Examination

Administrative           OIG Initiated        2 Months                          No recommendations.
Functions of the Special
Examination and
Supervision Division,
Office of Examination




                                                                                                 Page 10 of 10
